<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                            VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

              H. Res. 374, H. Res. 650, H. Con. Res. 129,

                           S. 1252 and S. 284

                               __________

                              MAY 18, 2016

                               __________

                           Serial No. 114-181

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-174PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 374, Recognizing the 50th anniversary of Singaporean 
  independence and reaffirming Singapore's close partnership with 
  the United States..............................................     2
  Amendment in the nature of a substitute to H. Res. 374 offered 
    by the Honorable Eliot L. Engel, a Representative in Congress 
    from the State of New York...................................     6
H. Res. 650, Providing for the safety and security of the Iranian 
  dissidents living in Camp Liberty/Hurriya in Iraq and awaiting 
  resettlement by the United Nations High Commissioner for 
  Refugees, and permitting use of their own assets to assist in 
  their resettlement.............................................    11
  Amendment to H. Res. 650 offered by the Honorable Eliot L. 
    Engel........................................................    17
H. Con. Res. 129, Expressing support for the goal of ensuring 
  that all Holocaust victims live with dignity, comfort, and 
  security in their remaining years, and urging the Federal 
  Republic of Germany to reaffirm its commitment to this goal 
  through a financial commitment to comprehensively address the 
  unique health and welfare needs of vulnerable Holocaust 
  victims, including home care and other medically prescribed 
  needs..........................................................    18
  Amendment to H. Con. Res. 129 offered by the Honorable Ileana 
    Ros-Lehtinen, a Representative in Congress from the State of 
    Florida......................................................    23
S. 1252, A bill to authorize a comprehensive strategic approach 
  for United States foreign assistance to developing countries to 
  reduce global poverty and hunger, achieve food and nutrition 
  security, promote inclusive, sustainable, agricultural-led 
  economic growth, improve nutritional outcomes, especially for 
  women and children, build resilience among vulnerable 
  populations, and for other purposes............................    24
S. 284, A bill to impose sanctions with respect to foreign 
  persons responsible for gross violations of internationally 
  recognized human rights, and for other purposes................    61
  Amendment to S. 284 offered by the Honorable Edward R. Royce, a 
    Representative in Congress from the State of California, and 
    chairman, Committee on Foreign Affairs, and the Honorable 
    Eliot L. Engel...............................................    74
Amendment to S. 284 offered by the Honorable Dana Rohrabacher, a 
  Representative in Congress from the State of California........    80

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    88
Markup minutes...................................................    89
Markup summary...................................................    91
The Honorable Dana Rohrabacher: Material submitted for the record    92
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Material submitted for the record...    96
 
                            VARIOUS MEASURES

                              ----------                              


                        WEDNESDAY, MAY 18, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    Pursuant to notice, we meet today to mark up several 
bipartisan measures. So, without objection, all members may 
have 5 days to submit statements or extraneous material into 
the record.
    All members were notified yesterday that we intend to 
consider our first four measures en bloc. And so, without 
objection, the following items previously provided to members 
will be considered en bloc and they are considered as read.
    We have House Resolution 374, regarding the partnership 
between Singapore and the United States, and the Engel 78, an 
amendment in the nature of a substitute. We have House 
Resolution 650, regarding the safety and security of Iranian 
dissidents living in Camp Liberty in Iraq, and the Engel 
amendment 80 to House Resolution 650. We have House Concurrent 
Resolution 129, regarding the dignity, comfort, and security of 
surviving Holocaust victims, and the Ros-Lehtinen amendment 45 
to House Concurrent Resolution 129. And then we have the Senate 
bill 1252, the Senate-passed Global Food Security Act.
    [The information referred to follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    Chairman Royce. And after recognizing myself and the 
ranking member, I will be pleased to recognize any members 
seeking recognition to speak once on any of these measures.
    So let me start by thanking the committee's chairman 
emeritus, Congresswoman Ros-Lehtinen, and Congressman Deutch 
for their work on House Concurrent Resolution 129. Now, this is 
the bill expressing support for Holocaust victims. We have had 
tens of thousands of victims, unfortunately, of the Holocaust 
who have come to be found to be living in poverty, living in 
poverty today, and many of those victims have unique health and 
assistance needs.
    Now, Germany has supported a number of aid programs 
throughout the years in acknowledgment of its moral obligation 
to help these victims. In fact, the German Government engages 
with members of the Claims Conference annually to evaluate 
their programs and identify any unmet needs. This year, gaps in 
home care, in mental health programs, and long-term medical 
care were all identified. Yet, despite a commitment to provide 
this assistance, negotiations on a path forward have slowed.
    So time is of the essence, of course, as these Holocaust 
victims suffer while these talks are now stalled. This 
resolution rightly calls for these talks to be accelerated and 
for an assistance plan that ensures transparency and 
accountability to guarantee funds are helping the most 
vulnerable go forward.
    After that measure, we are going to consider House 
Resolution 374, reaffirming Singapore's strategic partnership 
with the United States. Singapore has long been a very 
dependable friend and partner for us. We have a deep defense 
and trade relationship with Singapore. Today we are reaffirming 
the importance of this partnership to securing peace and 
stability in the Asia Pacific for several reasons, and one of 
these is because we appreciate Singapore's enforcement of 
sanctions on North Korea, as evidenced by a Singapore-
registered shipping firm which was found guilty in January of 
transferring money that could have contributed to North Korea's 
nuclear-related program.
    The prosecution of this firm by Singapore sends a very 
strong signal that Singapore is taking its international 
obligations very seriously, and we are appreciative of that.
    And I also want to thank Ranking Member Engel and the chair 
of our Asia Subcommittee, Matt Salmon, for their helpful input 
on the text we are considering today.
    I also want to thank Mr. Poe for his leadership in 
introducing a very necessary measure, House Resolution 650, 
regarding the security of Iranian dissidents living in Camp 
Liberty in Iraq.
    Camp Liberty is a former U.S. military base outside of 
Baghdad that is now home to more than 2,000 Iranian refugees 
who are members of opposition to the regime in Tehran. This 
past October, 23 residents were killed in a rocket attack on 
that camp. We have been receiving information that the Iranian 
regime and their proxies in Iraq are preparing for an imminent 
attack against the camp's residents.
    The frustration with this committee is that time after time 
after time we have had the Iranian regime go forward with 
attacks on these individuals without this being blocked by the 
government in Iraq. And in the meantime, that is why Mr. Poe's 
resolution calls on the administration and calls on the Iraqi 
Government to work to provide camp residents with the 
protections they need and to ensure they are expeditiously 
resettled outside of Iraq in such safe havens as Albania and 
other countries that have agreed to work with those who have 
opposed the regime in Iran to make certain that they are safe.
    I would hope that all of our members would support this 
resolution.
    I am also happy today that the committee is restoring 
regular order and exercising its fundamental responsibility to 
authorize before appropriating by considering S. 1252, the 
Global Food Security Act of 2015. Specifically, the bill 
authorizes, for the first time in 30 years, International 
Disaster Assistance. This is the essential humanitarian account 
that provides refugees with tents and sheeting, to water and 
medicine.
    But it also authorizes, for the first time, the Emergency 
Food Security Program, the flexible, efficient, and effective 
food aid program that helps refugees when and where they need 
it most so they won't be forced to seek refuge in Europe or 
beyond, and it advances policies that will improve food 
security and better enable people to grow their own way out of 
poverty so they will no longer have to depend upon U.S. foreign 
assistance, and it does all this without increasing spending.
    Indeed, this bill, which had much input on the Senate side 
from both Republicans and Democrats, passed unanimously in the 
Senate. This committee has held numerous hearings on food 
security. The bill before us today, which passed the Senate, as 
I say, with unanimous support, reflects more than 3 years of 
careful deliberation and inclusive discussions and amendments.
    So I want to thank Mr. Smith for his leadership on this 
important legislation and urge members to help get it to the 
President's desk without further delay.
    I now recognize the ranking member for his remarks.
    Mr. Engel. Thank you, Mr. Chairman, for convening this 
markup and for bringing these bipartisan measures forward. I am 
happy to support them all. I am grateful to all of our members 
on both sides of the aisle for their hard work.
    I will speak first about the four measures we are taking up 
en bloc. I will start with House Resolution 374, which 
recognizes a half century of independence for our close friend, 
Singapore.
    Last year, Singapore celebrated the 50th anniversary of its 
independence, and this year the United States and Singapore 
mark 50 years of our bilateral relationship. In that time, 
Singapore has become an important partner for the United States 
in the Asia-Pacific region. Over the years, we have seen our 
economic and security ties grow stronger and stronger.
    In the years ahead, as American foreign policy focuses more 
and more on Asia, we know there will be additional 
opportunities to work together with our partner Singapore on 
issues from countering violent extremism to addressing climate 
change, where Singapore as an island nation has been a strong 
leader, to pushing for peaceful and rules-based resolution to 
contentious issues like the South China Sea.
    This resolution underscores the important friendship 
between our countries, and I am happy to support it.
    We are also considering House Resolution 650, calling for 
the safety and security of the Iranian dissidents living in 
Camp Liberty in Iraq. I want to thank Mr. Poe and Mr. Higgins 
for working on this measure, which I am proud to cosponsor.
    I want to welcome our friends wearing their yellow jackets 
to this committee today. And believe me, we are very concerned 
about Camp Liberty and we are making everyone know that we are 
keeping a watchful eye to make sure that those people are 
protected.
    The residents of Camp Liberty deserve to live in dignity 
and without fear of violence. Last October's rocket attacks on 
the unarmed residents of Camp Liberty by a Shia militia with 
ties to Iran killed 24 people. It is the height of cowardice. 
We are still waiting for the perpetrators of this attack to be 
brought to justice.
    I would also note that my amendment to this resolution 
highlights Albania's commitments to resettling Camp Liberty 
residents. They have resettled 1,000 already and are 
recommitted to settling 2,000 more. I have worked closely with 
the Albanian Government in all the years I have been in 
Congress. This shows a tremendous generosity of spirit and 
commitment to care for the most vulnerable on the part of the 
people of Albania. This resolution sends a message that we 
stand with the men, women, and children in Camp Liberty and 
want to see quick and meaningful action to bring them relief.
    I will turn now to House Concurrent Resolution 129, which 
calls for Germany and for all of us to redouble our efforts to 
care for those who were victims of humanity's darkest chapter, 
the Holocaust. As a spokesman for Germany's Chancellor Angela 
Merkel recently said, ``All Germans know the history of the 
murderous race mania of the Nazis that led to the break with 
civilization that was the Holocaust. We know that 
responsibility for this crime against humanity is German, and 
very much our own.''
    Part of that responsibility, of course, is to generously 
assist those survivors who endured this evil firsthand. In a 
spirit of goodwill and friendship, this measure calls on 
Germany's leaders to do whatever it takes to properly care for 
this generation, which is getting older and dying, and I am 
glad to support it.
    Lastly, I am glad to support Senate bill 1252, the Senate's 
version of the Global Food Security Act, and I was pleased that 
the House passed our version a few weeks ago. It is simply 
unconscionable that nearly 800 million people around the world 
would live without knowing how they will get their next meal. 
Half of all the deaths of children under 5 years old are tied 
to malnutrition.
    The United States has a responsibility to help meet this 
challenge, both by helping people feed themselves and by taking 
a hard look at the root causes behind poverty, hunger, and 
instability. This bill prioritizes foreign assistance programs 
aimed at reducing global poverty and hunger. It also authorizes 
a strong investment in the administration's signature effort 
Feed the Future, as well as other State Department and USAID 
initiatives. These efforts deserve our continued support, and I 
am glad we are moving ahead with this bill.
    So thank you again, Mr. Chairman, thanks to all our 
members, again, on both sides of the aisle, and I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    Our chairman emeritus, Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman and 
Ranking Member. I want to thank my good friend and south 
Florida colleague, Congressman Ted Deutch, for our work 
together in crafting H. Con. Res. 129 in support of Holocaust 
survivors.
    The United States is home to nearly one-quarter of all 
survivors, and approximately 15,000 live in south Florida. We 
both have many constituents who are survivors, and as their 
Representatives in Congress, we have an obligation to ensure 
that we are doing everything in our power on their behalf. But 
many are also close and personal friends, and as their friend, 
I also have an obligation to be their voice and express their 
frustration and concerns.
    Since the 1950s, Germany has recognized that it has a moral 
obligation to Holocaust survivors and their heirs, and to 
Germany's credit, it has attempted to ensure survivors' needs 
are met and it has attempted to resolve some of the lingering 
injustices.
    However, even by Germany's own admission, its efforts to 
date have been inadequate at addressing the medical, mental 
health, and home care needs of many of the world's survivors. 
Nearly half of all survivors live at or below the poverty line. 
This is not only shameful, it is inexcusable.
    These survivors have lived through the unimaginable. The 
pain and suffering they have endured has left physical and 
mental scars that cannot be healed and horrifying memories that 
can never be forgotten. These experiences mean their medical, 
mental health, and home care needs are more complex than other 
elderly individuals. And that is why this resolution is so 
important, and that is why we are urging Germany to act 
expeditiously to honor its commitment and fulfill its moral 
obligations to all survivors.
    These individuals have very little time. The system 
currently in place is full of red tape, riddled with layer upon 
layer of bureaucracy. The Claims Conference itself is known to 
have come under increased scrutiny for the many cases of fraud 
and abuse. And the proof that this process isn't working is 
that nearly half of all survivors, as I said, still live in 
poverty, and that under the current system many died long 
before their time as a result. Survivors deserve better than 
that. They deserve to live out their days in dignity and 
comfort. The right thing to do is for Germany to provide for 
all the survivors' needs directly and to do so transparently 
and efficiently with the urgency that circumstances demand.
    I hope that all of my colleagues will join us in urging the 
German Government to do more, to do the right thing, to honor 
its obligations and commitments with the urgency demanded by 
justice and decency. I sincerely believe Chancellor Merkel's 
heartfelt expression of concern about Germany's responsibility 
to survivors and leadership on moral issues will finally 
resolve this longstanding tragedy for survivors.
    And, Mr. Chairman, I would also like to briefly say some 
words of praise and support for Judge Poe's resolution, House 
Resolution 650, that calls for the safety and security for the 
residents of Camp Liberty in Iraq. It is no secret that the 
Iraqi Government completely failed to protect these individuals 
in Camp Liberty, not living up to its commitments made in the 
December 2011 Memorandum of Understanding.
    Camp Liberty has never been given adequate protection. And 
now, with the Iran nuclear deal and Iran getting more money to 
carry out its illicit activities, I fear that Liberty will be 
an even easier and larger target for the regime than before.
    Albania has stepped up and offered these residents a 
respite from the terror. So for that, I thank Albania for its 
courage and compassion. However, I remain concerned that the 
United Nations isn't placing the urgency required to move these 
residents to Albania. There should be at least weekly charters 
for Liberty residents to Albania. There is simply no 
justification for anything less.
    I will continue to press our administration and other 
governments to do whatever we can to help the Liberty residents 
as soon as possible, and I will continue to support all of 
these Liberty residents until every last one of them is free 
from the threat of attack. I support Judge Poe's resolution and 
I commend him for his leadership on this issue.
    Thank you, Mr. Chairman and Ranking Member.
    Chairman Royce. Thank you.
    We now go to Mr. Brad Sherman of California.
    Mr. Sherman. Thank you, Mr. Chairman, for bringing these 
bills up. I have cosponsored the three House bills and support 
all bills. I join with the chair and the chair emeritus and 
especially the ranking member in their remarks in favor of 
these bills.
    I want to speak briefly about H. Res. 650, a resolution 
that calls for providing safety and security to the Iranian 
dissidents living in Camp Liberty. The MEK, also known as the 
People's Mujahedin Organization of Iran, is an Iranian exile 
opposition group that was opposed to the Shah's dictatorial 
regime and is opposed to the current regime. The MEK has played 
a critical role in revealing information about Iran's illegal 
nuclear program.
    There is a tendency to look at anything in the world 
through the lens of political controversies in the United 
States, but I think, regardless of whether the Iran deal is the 
best way or not the best way to deal with Iran's nuclear 
program, we all owe a debt of gratitude to the MEK for bringing 
this information to the world and causing the United States and 
the world to focus on the problem.
    Approximately 3,000 MEK members residing in Camp Ashraf 
were transferred to Camp Liberty in 2012. The MEK members were 
protected by the U.S. military until we transferred authority 
to Iraq in 2009. Since then, the United Nations High 
Commissioner for Refugees, which has recognized the MEK as 
persons of concern and in need of international protection, has 
worked to resettle MEK members to various countries, including 
and especially Albania. Albania has already taken approximately 
1,000 MEK members and has committed to resettling an additional 
2,000, and I commend the ranking member for his amendment that 
recognizes the important contribution Albania has made and has 
offered to make in the future.
    The Iraqis promised to provide security protection to the 
MEK members in Iraq after the U.S. transferred authority to the 
Iraqi Government. However, to date, they have not provided the 
necessary protection. We have a complicated relationship with 
the government in Baghdad. It is under siege, it relies on 
American support, and it should be called upon very strongly by 
the United States to meet its minimum human rights obligations 
to protect Camp Liberty. In 2015, an Iraqi Shiite militia 
launched rockets against Camp Liberty, killed 24 people, 
injured dozens, and of course the Iraqi Government did nothing.
    This resolution, and I commend Judge Poe for bringing it 
forward, details the history of violence against Camp Liberty 
residents, including the most recent attack in 2015. The 
resolution also calls on the Iraqi Government to improve 
security at Camp Liberty. In addition, H. Res. 650 calls on the 
U.S. Government to do a better job of pushing Iraq to uphold 
its promises and urges the U.S. Government to work with Albania 
and the U.N. High Commissioner for Refugees in the resettlement 
process.
    I strongly support this resolution and the other bills that 
are part of the en bloc. And I yield back.
    Chairman Royce. Thank you.
    We now go to Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. It has been a black mark on our country on 
many occasions when we did not stick by the people who stuck by 
us. And I have an amendment to the bill that will be coming to 
the floor, or is on the floor today, talking about Dr. Afridi 
and how we have allowed him to lay and sit in a dungeon in 
Pakistan while we still give foreign aid and military equipment 
to the people who have incarcerated him. And these people, of 
course, are putting in jail and persecuting a man who helped us 
bring to justice the murderer of 3,000 Americans on 9/11.
    Well, what we have here today is a chance to make something 
right or to try to take a step in the right direction, reclaim 
some of our honor as a country. Those residents of Camp Liberty 
are part of an organization that have long opposed the mullah 
dictatorship in Iran. The reason they were in that camp and the 
reason that they had left Iran was because they opposed an 
enemy of the United States. The mullahs have made no beans 
about it, they believe the United States is the great Satan and 
are willing do to things and have done things that have caused 
the loss of life of Americans and have put our people in 
jeopardy. Yet, here again, we have let down the people who are 
putting their lives on the line for us and we have just let 
them drift.
    I think it is time we reclaim our honor, and I support this 
resolution, H. Res. 650. And if this does not work, let's just 
commit ourselves to saying the people of Camp Liberty put 
themselves on the line for us, they risked their lives for us, 
they are now in great danger, one way or the other we will move 
to save them. And if need be, we need to bring these people to 
the United States and let them be free from the threat of the 
mullahs who also threaten our own people.
    So this is the time for us to express solidarity with those 
brave souls who have expressed solidarity with the people of 
the United States in a desperate and a very dangerous 
situation.
    I yield back.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    We now go to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you. Thank you, Chairman Royce and 
Ranking Member Engel, for holding today's markup and for 
advancing these important legislative efforts.
    I would like to speak about H. Con. Res. 129, which calls 
upon Germany to fully fund the needs of aging Holocaust 
survivors. I would like to start by thanking my friend, 
Chairman Emeritus Ros-Lehtinen, for partnering with me in this 
effort and for her longstanding commitment to championing the 
needs of Holocaust survivors.
    I also want to acknowledge the efforts of so many of our 
constituents, Ms. Ros-Lehtinen's and my own, who have on their 
own come to Washington over the years to talk about the 
difficulties that they and so many other face. In particular, 
Jack Rubin, a constituent and friend who has testified in this 
body before, deserves thanks for his tireless advocacy on 
behalf of survivors.
    One of the great privileges I have serving in Congress is 
representing a large number of Holocaust survivors, and earlier 
this month I attended a Yom HaShoah, a Holocaust Remembrance 
Day ceremony in my district. I have been attending the 
ceremonies for more than a decade and every year there are more 
and more empty seats. A constituent of mine recently told me 
that it feels like every day he gets a call to attend another 
funeral of a survivor.
    In short, the survivor population is aging and their needs 
are increasing. Unfortunately for the roughly 100,000 survivors 
living in the United States, tens of thousands of them live in 
poverty. They cannot afford and thus do not receive sufficient 
medical care, home care, and other vital life-sustaining 
services.
    Today, we have a chance to ensure that this population, 
these survivors who made it through the darkest time in 
history, can live out their lives with the dignity they so 
deserve.
    For decades, the German Government has remained committed 
to funding survivor needs through annual negotiations and 
appropriations, and we appreciate this ongoing commitment. I 
know that this is an issue that Chancellor Merkel cares deeply 
about as she has personally reaffirmed that commitment to me.
    Unfortunately, despite the payments of the German 
Government throughout the years, significant gaps in survivor 
care remain, and German officials have acknowledged this 
shortfall. The shortfall is the most dramatic when it comes to 
home care. For survivors, the need to stay in their homes as 
they age is critical. As they approach their late 80s and 90s 
and beyond, they rely more on home care services.
    Under the current system home care is capped so that even 
the most infirm, isolated, and poor Nazi victims can receive 
only a maximum of 25 hours of home care. This amounts to 5 
hours a day, 5 days a week.
    In addition, current funding is inadequate to provide for 
additional hours. Take, for example, a constituent of mine who 
is 91 years old and survived Bergen-Belsen. He fell last month 
and suffered a fracture, followed by rehabilitation. He likely 
needs a bone procedure on his back due to the recent fall and 
he has suffered from other debilitating circumstances in the 
past that have limited his mobility ever since.
    He requires assistance with all activities of daily living. 
He and his wife share a total of 48 hours a week home care. But 
as a result of the recent circumstances and his overall medical 
history, he needs round-the-clock care, and it is, frankly, 
unconscionable that he does not receive it and that his hours 
are limited.
    Now, many of those who survived also lack family support to 
help them with their daily needs. They need transportation to 
doctor's appointments or help preparing meals. They deserve to 
be able to access the most basic care. They deserve to be able 
to meet their mental and medical health needs.
    Now, thankfully--thankfully--we have the opportunity right 
now to alleviate the suffering of Holocaust survivors. There 
are negotiations ongoing right now with the German Government. 
And this is possibly the last opportunity for Germany to 
reaffirm its commitment to comprehensively address the unique 
health and welfare needs of vulnerable Holocaust victims by 
increasing funding for survivor care so that every survivor can 
have his or her needs met.
    Now, no amount of money can ever erase the horrors faced by 
Nazi victims, but there is a moral responsibility to ensure 
that they can receive the vital services and the medical care 
to live out the remainder of their days with dignity and in 
comfort.
    Mr. Chairman, the resolution before us today urges the 
German Government to fulfill its moral and financial commitment 
to the victims of the Holocaust. It puts Congress on record 
declaring that the time to act is now and we will fight and 
watch until this is done. No more limitations on home care 
hours. Fund the needs, all of them. Complete the negotiations. 
The time for meaningful action is now. And I urge my colleagues 
to support this resolution.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    Congressman Joe Wilson from South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman. I am grateful that 
once again, with your leadership and the ranking member, this 
committee is considering multiple pieces of bipartisan 
legislation.
    House Concurrent Resolution 129, sponsored by Chairman 
Emeritus Ros-Lehtinen, is particularly important to ensuring 
that victims of the Holocaust are able to live comfortable and 
happy lives. This legislation also urges the Federal Republic 
of Germany to ensure adequate resources to address the unique 
medical needs that these individuals face due to their horrific 
experiences during the Second World War. The United States must 
never forget the tragedy of the Holocaust and do all that we 
can to ensure that the rest of the world does not either.
    Next, I am grateful that the Senate version of the Global 
Food Security Act of 2016 continues to address this critically 
important issue, increasing accountability and congressional 
oversight of foreign assistance meant to address food shortages 
abroad. One of the great challenges that developing nations 
have and face is the health and well-being of their citizens. 
It is particularly encouraging to see Congress acting to help 
our friends and allies abroad.
    Today, the committee is also taking important steps, with 
the leadership of our chairman, in recognizing the cooperation 
between the United States and Singapore; protecting Iranian 
dissidents, with the leadership of Judge Ted Poe; and imposing 
sanctions against human rights abusers. I applaud the great 
work behind this legislation and urge their passage. And I 
yield back my time.
    Chairman Royce. Mr. Brendan Boyle of Pennsylvania.
    Mr. Boyle. I thank the chairman and ranking member for 
taking up today's measures. I would like to speak on one of 
them in particular, H. Con. Res. 129, introduced by 
Subcommittee Chairwoman Ros-Lehtinen and Ranking Member Deutch. 
I thank both of them for introducing this legislation and I am 
proud to cosponsor it as it has an important impact for my 
district of Philadelphia and Montgomery County, PA, which has a 
significant population of Holocaust survivors, a number of whom 
are personal friends.
    This resolution urges Germany to provide increased 
assistance for the most critical needs of Holocaust survivors. 
While I appreciate Germany's financial and moral commitment to 
Holocaust survivors thus far, even German officials admit that 
current gaps in assistance exist today.
    Constituents of mine, a married couple age 86 and 93 who 
are Holocaust survivors, reside in a two-story row house with 
stair glides provided by the Jewish Family and Children Service 
of Philadelphia through the Claims Conference. Their two 
children reside out of State. The husband has been having 
significant physical and cognitive decline over the past few 
years. His attending needs are great, but they are not medical 
at this time. He should be able to remain safely in his home 
with enough support.
    His wife is unable to attend to most of his needs due to 
her own aging issues. The greatest issue for her husband is 
that he is a fall risk due to strength and ambulation issues. 
He is also suffering from wartime nightmares and wakes up 
through the night and needs to be calmed down. His wife cannot 
do this as she must get sleep, lack of sleep greatly affecting 
her own health.
    So if JFCS of Philadelphia was able to provide more hours 
of home care for them both, they would have an aide take care 
of both of their needs. Her needs are suffering as a result of 
her taking care of his needs.
    The Holocaust survivor population is aging. They are now in 
their 80s and 90s. It is important to acknowledge that an 
estimated 100,000 Holocaust survivors live in the United States 
and--and I think this is the most galling statistic--nearly 
half of all Holocaust survivors live below the poverty line. 
Let's make sure these brave survivors live out their lives in 
dignity. And I yield back.
    Chairman Royce. Judge Ted Poe of Texas.
    Mr. Poe. I thank the chairman, and I would like to discuss 
a matter that we have discussed a lot since 2009, and that is 
the folks, the good folks in, first, Camp Ashraf, and then Camp 
Liberty, who, while they have been in these camps, bad things 
have happened to them.
    Every time we meet, it seems that there have been more 
assaults, more murders, more rocket attacks against these folks 
who have lived in these two areas. Many of them are here today. 
Their families are in Camp Liberty. Some of their families have 
been killed since 2009. And I admire their perseverance.
    But there are about 2,000 members of the Iranian opposition 
movement MEK. Once again, they are unarmed and they live in 
Camp Liberty, Iraq. They live there because they have been 
forced out of Iran, a country that tolerates no political 
opposition, and if they were to be returned to Iran they would 
be killed.
    The mullahs in Iran fear and hate the MEK. MEK basically 
just wants freedom in Iran, free elections. But it turns out 
that the long arms of the mullahs in Tehran reach out to Iraq, 
where these folks have been for a long time. Last October, 
residents came under intense rocket attacks in Iraq. Twenty-
four people were killed, dozens of others were injured, and the 
IRGC claimed the assault and warned that more would follow.
    These kinds of attacks--there have been seven, if I can 
remember correctly, on the people in the MEK that live in 
Iraq--have claimed the lives of 140 people. Not one person has 
been held accountable for these murders. Not one person has 
been arrested or gone to jail for these murders that occurred 
in these camps. Thirteen hundred others have been injured and 
seven have been kidnapped. The residents live in constant fear 
of another attack. Their only crime is opposing the tyrants in 
Iran.
    H. Res. 650 condemns these attacks. I want to thank the 
ranking member for his amendment that makes this resolution 
even better. But the resolution condemns the attacks and urges 
the Iraqi Government to bring those responsible to justice.
    Those in the Iraqi Government who claim links to the IRGC 
should not be put in charge of the camp. Several years ago, 
Chairman Rohrabacher and myself went to Iraq and we wanted to 
see Camp Ashraf, and the Government of Iraq was so irate that 
we wanted to visit what was happening in the camp before they 
were moved to Liberty that Chairman Rohrabacher and myself were 
told to leave Iraq. We were evicted, kicked out of the country. 
That is how much support the Iraqi Government gives to the 
mullahs in Iran about the camps. Of course, we didn't leave. We 
stayed anyway and did what we wanted to do. But that shows you 
the Government of Iraq's position on that, because we just 
merely wanted to see for ourselves the living conditions of 
these, I think, very patriotic people.
    So Iraq is not a safe place for those residents. They 
should be resettled to a third country. As Iran's influence 
continues to grow in the region, we must show our strong 
support for these dissidents. They want freedom for their 
fellow countrymen, but for the last 30 years that pursuit has 
cost them and they have had to flee the country they love and 
lose many of their family members. We should do all we can to 
urge their protection.
    It is important that the Government of Iraq allow the 
residents to sell the property at Camp Liberty and Camp Ashraf. 
It is their property. It does not belong to the Government of 
Iraq. And once again, I want to thank Ranking Member Engel for 
his amendment that makes this clear. As it stands now, the 
Iraqi Government is only allowing the residents to take the 
clothes that they are wearing on their back. They can't even 
take their laptop computers. This is their property. It doesn't 
belong to Iraq. And the folks that leave Camp Liberty and go 
other places should be allowed to take their personal property 
whatever country that they go to. This is only right. Justice 
demands this. So I thank the chairman and the ranking member 
for their support of this legislation, this resolution, and I 
hope that we don't have to meet again and there are more 
casualties in Liberty because we have not helped get these good 
folks resettled to another country.
    I yield back. Thanks for the remaining time.
    Chairman Royce. Well, thank you for your eloquence on this 
issue, Mr. Poe, but also thank you for introducing it.
    Are there any other members seeking time?
    Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. I will be brief. And I 
am supportive of H. Res. 650 and 129, but I will speak briefly 
on H. Res. 374.
    As former chair of the Asia and the Pacific Subcommittee, I 
always paid very close attention to the U.S.-Singapore 
relationship, and it is a very tiny country who really holds 
exceptional importance to the U.S. We have a longstanding 
security relationship with Singapore, and our commercial ties 
with them have strengthened significantly over the past half 
century.
    I think that this link in all likelihood is only going to 
intensify as the global economy further intertwines and our 
partners in the Asia Pacific place greater emphasis on an 
American presence there to help combat growing maritime 
threats, specifically from the PRC, from China. As we know, 
they are not only building islands now, much to the chagrin of 
their neighbors from Japan, South Korea, the Philippines, et 
cetera, but they are actually militarizing those islands right 
now. And this administration has done not very much, virtually 
nothing of substance to push back on this, which is a real 
shame.
    This legislation recognizes the importance of ensuring a 
strong U.S.-Singapore strategic partnership that encourages 
regional stability and highlights the significance of the U.S.-
Singapore economic relationship. The bill promotes greater 
cooperation on cybersecurity and information-sharing efforts, 
both issues that are exceptionally relevant to protecting the 
region, both militarily and economically. So I am very 
supportive of this one in particular and the other ones that I 
mentioned and urge my colleagues to support them. And yield 
back.
    Chairman Royce. Thank you.
    Hearing no further requests for recognition, are there any 
further amendments? Hearing none, the Chair moves that the 
committee adopt the items considered en bloc.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
measures considered en bloc are agreed to. And without 
objection, the measures considered en bloc are ordered 
favorably reported, as amended, and staff is directed to make 
any technical and conforming changes.
    Also, without objection, the Chair is authorized to seek 
House consideration of those measures under suspension of the 
rules.
    Moving on to our final measure, I now call up Senate bill 
284, the Global Magnitsky Human Rights Accountability Act. 
Without objection, the Senate-passed text of S. 284, as 
modified by Royce 102, the bipartisan manager's amendment 
provided previously, will be considered base text for purposes 
of amendment.
    [The information referred to follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
      

    Chairman Royce. After recognizing myself and the ranking 
member, I will be pleased to recognize any member seeking 
recognition to speak on the underlying bill before we move on 
to the amendments.
    Now, this bill, the Global Magnitsky Human Rights 
Accountability Act, authorizes sanctions against foreign 
nationals responsible for significant corruption or responsible 
for gross violations of internationally recognized human rights 
which are committed against individuals seeking to promote 
human rights or to expose government corruption.
    Today's manager's amendment strengthens the Senate text, 
specifically, the amendment requires that any sanctions 
recommendations made to the President must have the support 
from both the chair and the ranking member of the requesting 
committee. By mandating a joint referral, this bill ensures 
bipartisan support for any action the President may take.
    In addition, the amendment brings the Senate text into 
compliance with House rules regarding sunsets. The inclusion of 
a sunset to this legislation ensures that Congress has the 
opportunity and has the responsibility to review the 
application of sanctions authority after 3 years of being on 
the books.
    I want to thank the ranking member and others who worked 
with us to craft this amendment. I urge all members to support 
the bill's passage. And we will go to--yeah, Mr. Engel is on 
his way. Do any other members seek recognition?
    Mr. Rohrabacher.
    Mr. Rohrabacher. I rise in support of the legislation and 
what it is trying to accomplish. And let's make very clear that 
I have a long track record of supporting efforts by our 
Government in the area of civil liberties and especially in 
terms of opposing kleptocracies and violent dictatorships, et 
cetera. And in this case, what we are actually trying to do is 
right. We are putting in place a mechanism in order to make 
sure that those people who control other countries and have 
committed major human rights abuses don't get off scot-free, 
and that is a good thing.
    And let me just note that my amendment that will be coming 
up afterwards does not in any way disagree with the purpose of 
the bill. I will be voting for the bill. But my amendment will 
question as to whether or not the title should include a 
specific name of a case.
    So I rise in support of this legislation. I think it is 
what Americans should be for. That is standing up to gangsters 
and brutes overseas who commit violent acts and are engaged 
with human rights abuses. However, there is a question about 
the name, which I will be bringing up in an amendment later on.
    So thank you very much, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to begin by 
thanking you and Ranking Member Engel for holding this markup 
today.
    As always, I am pleased that this committee has come 
together in a spirit of bipartisanship to pass legislation that 
deals with a variety of important issues and was very proud to 
cosponsor the bills we just passed that were introduced and 
passed in a bipartisan way. And I appreciate the opportunity to 
speak this morning in strong support of the Global Magnitsky 
Human Rights Accountability Act, the bill introduced in the 
Senate by Senator Cardin and here in the House by our colleague 
Chris Smith.
    This important legislation builds upon the achievements of 
the Magnitsky Human Rights Accountability Act, which was signed 
into law in 2012, and has been an important tool in targeting 
those in the Russian Government who are complicit in the death 
and subsequent coverup of Russian lawyer Sergei Magnitsky.
    The Global Magnitsky bill authorizes the executive branch 
to impose sanctions against individuals responsible for gross 
human rights violations against persons seeking to expose 
government corruption or promote human rights and freedoms. By 
expanding the scope of the sanctions beyond the Russian 
Government, this legislation sends an important message to 
those who seek to suppress human rights around the world that 
they will not be able to benefit from the U.S. financial system 
or travel to this country if they partake in gross abuses or 
corruption, which, unfortunately, we have seen with increasing 
regularity around the world in recent years.
    I commend the leadership of Senator Cardin and of my 
colleague Congressman Smith in introducing this legislation and 
getting us to this point.
    According to Freedom House, freedom around the world has 
been in steady decline for 10 years, and 2015 had the steepest 
decline yet. The war in Syria, the resulting refugee crisis, 
the rise of extremism have all contributed to crackdowns in the 
name of so-called security and a general decline of human 
rights in every region of the world.
    I am particularly concerned by the uptick in abuses against 
vulnerable populations who are already at grave risk in many 
countries. In particular, lesbian, gay, bisexual, and 
transgender communities around the world have experienced 
horrific violence and violations of basic human rights that 
puts individuals in these categories at grave risk for injury 
or death simply because of who they are.
    Yesterday, the world commemorated the International Day 
Against Homophobia, Transphobia and Biphobia, which is 
dedicated to raising awareness of the terrible discrimination, 
violence, and other violations committed against LGBT 
communities around the world. To be clear, we are not talking 
about marriage or bathroom laws in the international context. 
LGBT people abroad face horrific persecution, threats, constant 
harassment, lack of access to health care, marginalization, 
violence, and death because of their status or perceived status 
of being gay, lesbian, or transgender.
    Some illustrations. In The Gambia and sub-Saharan Africa, 
President Yahya Jammeh has threatened to personally ``slit the 
throats'' of gay men found in his country and has arrested and 
tortured a number of gay men, including one who was beaten so 
badly in detention he needed to be hospitalized. In Indonesia, 
this year the Defense Minister publicly called the LGBT 
community a threat that must be defeated with ``kind of modern 
warfare.'' Last year in Brazil, a transgender teen was beaten 
to death and two Sao Paulo police officers implicated in her 
death were freed because the judge did not believe they 
``seemed like criminals.''
    Numerous reports of horrific murders of allegedly gay men 
have come out of territories controlled by the Islamic State, 
including men being thrown off tall buildings, then stoned to 
death by crowds incited by homophobic rhetoric. In Russia, the 
Duma is considering legislation to follow up on its infamous 
anti-homosexual propaganda bill with legislation making it 
illegal to come out as gay, punishable with jail time.
    Unfortunately, I could go on and on with additional 
examples.
    Because of the particularly heinous nature of the 
violations routinely committed against LGBT communities around 
the world, I intended to offer an amendment to this legislation 
clarifying that the persecution of the LGBT individuals and 
those protecting their rights are included in the abuses 
sanctionable by this legislation. However, it is my 
understanding, after speaking with our chairman on this 
subject, that he agrees with my assessment that these rights 
are, indeed, included in the legislation.
    And with that, I would probably yield before I conclude to 
the chairman.
    Chairman Royce. Well, yes, thank you for raising this 
point.
    Certainly, around the world we have witnessed some truly 
severe human rights violations, some directed at people solely 
on the basis of their professed or perceived sexual orientation 
or gender. In a number of African countries, gay people are at 
risk of being killed or jailed for life, and in places like 
Russia and Iran, we see authorities trying to ban even the 
discussion of sexual orientation. And, of course, there was the 
brutal murder of a USAID employee and gay rights activist in 
Bangladesh just last month. This was an abhorrent crime.
    And I want to make clear that the internationally 
recognized human rights referenced in the Global Magnitsky Act 
apply to all people, including those who identify as LGBT, and 
the committee is planning a hearing for later this year on the 
alarming threats to fundamental human rights worldwide.
    So I look forward to working with the gentleman on that, 
and today it is important that we advance this legislation that 
promises to improve human rights of all.
    Mr. Cicilline. Thank you, Mr. Chairman. I thank you for 
your consideration of this. I look forward to working with you 
and other members of this committee to ensure that the rights 
of LGBT individuals and other vulnerable minorities receive due 
consideration here at the committee, and I think a hearing on 
this matter would be a great step forward. And with that, I 
yield back.
    Chairman Royce. Thank you.
    Other members seeking recognition?
    Mr. Higgins.
    Mr. Higgins. Thank you, Chairman. Thank you, Ranking Member 
Engel. Thank you for holding this important markup today. I am 
pleased that we will be considering House Resolution 650, a 
resolution introduced by Congressman Ted Poe, which would 
reiterate our strong commitment to the residents of Camp 
Liberty by providing for their safety and expedited 
resettlement.
    Since 2009, seven attacks at Camp Liberty and Camp Ashraf 
have killed 140 residents, with over 1,000 wounded. Despite 
pledges to provide for their safety, the Government of Iraq has 
failed to live up to this commitment and some of its forces may 
have been complicit in these attacks.
    Approximately 2,000 residents of Camp Liberty are currently 
awaiting resettlement by the United Nations High Commissioner 
for Refugees. We must work with the U.N. and the Iraqi 
Government to expeditiously relocate these individuals before 
any more harm befalls them. In the interim, the Government of 
Iraq must provide for the safety and security of this 
vulnerable population.
    I look forward to the passage of this resolution. I yield 
back the balance of my time.
    Chairman Royce. Thank you, Mr. Higgins.
    Other members seeking recognition?
    Mr. Engel.
    Mr. Engel. Mr. Chairman, again, thank you for convening 
this markup. I also want to thank you for bringing forward our 
last bill, the Global Magnitsky Human Rights Accountability 
Act. This is a product of many years of hard work by 
Representatives Smith and McGovern here in the House and by 
Senators Cardin and McCain in the Senate.
    This bill would authorize the President to sanction foreign 
individuals who commit gross violations of human rights, as 
well as government officials involved in significant acts of 
corruption. It would allow the chairs and ranking members of 
relevant congressional committees to send names of potential 
violators to the administration, and requires a determination 
of whether those people meet the criteria for sanctions.
    This measure builds on the 2012 Magnitsky Act, which 
created a similar process for people inside Russia. This 
legislation would send a powerful message that human rights 
abusers and corruption aren't just internal matters, they are 
the concern of all countries, and they should not be permitted 
to go on with impunity.
    So I urge support for this important legislation. Thank 
you, again, Mr. Chairman. Thank you to all our members. I yield 
back.
    Chairman Royce. Thank you, Mr. Engel.
    We now go to Mr. Brad Sherman of Los Angeles.
    Mr. Sherman. First, I want to commend the gentleman from 
Rhode Island for focusing on LGBT rights, and especially thank 
the chairman for his comments, the colloquy, and the upcoming 
hearing. LGBT rights are human rights.
    I heard the gentleman from Orange County on the name 
``Magnitsky'' being in the bill. On the one hand, this bill 
really isn't focused on Magnitsky or on Russia. It deals with 
our human rights approach worldwide. And the Magnitsky case is 
inspiring to many. I know the gentleman from California 
believes that some of what we believe about that case is not 
true. But I would point out that there are many other inspiring 
cases.
    On the other hand, the author of a bill who works so hard 
on it usually gets to suggest a title. This bill has gone 
through the Senate, has been the product of all the Senators 
and House Members that the chair named. So I realize the 
gentleman from California feels strongly that Magnitsky's name 
should not be part of the title and look forward to the 
comments of our colleagues here on that issue.
    Chairman Royce. Does the member have an amendment at the 
desk? And I am not suggesting that the gentleman should offer 
an amendment. I am just commenting that he makes an interesting 
point, and I see both sides of that point. And I am not trying 
to inspire any action by any member.
    Mr. Rohrabacher. I have an amendment at the desk.
    Chairman Royce. The clerk will report the amendment.
    Ms. Marter. Amendment to S. 284, offered by Mr. Rohrabacher 
of California, page 2, line 2, strike ``Magnitsky.''
    [The information referred to follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Chairman Royce. The Chair recognizes the author to explain 
the amendment.
    Mr. Rohrabacher. Yes, my amendment is very simple. I mean, 
it would change the name of the bill simply by removing the 
word ``Magnitsky'' from the bill. So we would then call it the 
Global Human Rights Accountability Act, which is more accurate 
than to put ``Magnitsky'' in the middle of that. I mean, the 
fact is this bill isn't just about Russia. It is about setting 
an international standard. By putting ``Magnitsky'' in the 
title, we are taking a gratuitous slap at Russia and we are 
confusing people about the real purpose of this bill.
    The purpose of this bill is not just to attack Russia. We 
already have legislation doing that, specifically on Magnitsky. 
And basically, we should be very proud that we are setting an 
international standard and not confuse it by adding one case. 
Let's note about this case, there has been a lot of talk about 
it. It is confusing. We need to look into this and ask some 
serious questions before we just accept what is being handed to 
us.
    In the 1990s, Russia was in economic chaos as it shifted 
from state control to a market economy. At this time, you had 
very notorious characters arise in Russia and coming from 
outside of Russia to exploit that situation for their own 
situation. We saw the rise of oligarchs who were not just 
Russians, but other people as well, and they ended up walking 
away with billions of dollars. Some of these foreigners, 
including Mr. Browder, who was Mr. Magnitsky's boss, walked 
away with billions of dollars. Let me note that Mr. Browder is 
not a U.S. citizen. He gave up his citizenship at a time to 
shield himself from major tax liabilities. So we have people 
there.
    And I notice that he sent a letter to us talking about 
kleptocracy, and here is a man himself who made billions of 
dollars in the middle of this chaos. And there is a major 
question--and that is what this whole issue is about--as to 
whether $230 million worth of taxes the Russian Government 
deserved from those billions of dollars made by Mr. Browder, 
whether or not those--that he legitimately paid this or whether 
or not he was trying to shield that.
    Mr. Magnitsky was the man who helped keep his books. He was 
arrested. And the question is whether or not what he went 
through and the horrible confinement that he was kept in and 
treatment that he was given was the Russians trying to find 
out--have him say where is the money that Browder hid, or is it 
that he had some information that showed corruption on the part 
of the Russians. And I will have to say that it is possible 
either one of those explanations could be true, but we don't 
know enough.
    I would put for the record, submit for the record now, Mr. 
Chairman, an article from The New Republic and an article from 
The Wall Street Journal that calls into question this account 
that we have been told over and over again.
    Let me note that there was a major, one of the most 
respected documentary filmmakers, an anti-Putin documentary 
filmmaker from Russia who started to do research on this and 
was going to have a documentary condemning the Russian 
Government on this, and he came away after the investigation 
changing his basic belief and believing instead that Mr. 
Browder has actually had a PR campaign to cover up some of his 
own activities in escaping this tax liability.
    So let me just note that also Mr. Browder has, from what we 
are told, and there is evidence that indicates, that he has 
threatened to sue NBC for a documentary that says something 
else than what he would like presented about this Magnitsky 
case.
    So let me just say, this is a confusing situation and there 
are serious questions that need to be addressed, and there is 
no reason, as I say, when we are setting up this global 
standard, that we need to include another factor that adds 
confusion to the purpose of the case.
    So with that said, I would ask my colleagues just, let's 
name this the Global Human Rights Accountability Act. We can be 
proud of that. I have always been a proud supporter of human 
rights measures throughout my career. And I think this 
actually, by doing this, we take away the confusion.
    And I think it is striking a blow to say what we want is an 
explanation, what we want to base this on is truth, not just 
some gratuitous slap at Russia by some, and at the same time 
backing up the claims of a guy who made billions of dollars at 
a time when Russia was economically confused.
    So with that, I would ask my colleagues to join me in what 
I consider to be a very rational and reasonable proposal, that 
we make this the Global Human Rights Accountability Act instead 
of the Global Magnitsky Human Rights Accountability Act.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Do any other members seek recognition to speak on this 
amendment?
    Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    Let me first say, with respect to my good friend and 
classmate from California, I have to oppose this amendment. 
Sergei Magnitsky was a lawyer who worked to shine a light on 
corruption, fraud, and theft by authorities inside Russia. As 
we well know, opponents of Russia's increasingly authoritarian 
regime don't get the benefits of due process or rule of law. So 
he was thrown in prison, held for a year with no trial, denied 
medical care, subjected to horrific conditions, and beaten by 
prison guards in the final hours of his life. His basic rights 
and dignity were pushed aside when he was dying in a Russian 
prison cell, but now his name and his story have become 
synonymous with efforts to advance human rights and fight 
corruption.
    There is a good reason we put his name on a law years ago, 
and we should reject any attempt to revise history or sweep it 
under the rug. We should not be apologists for Putin. We should 
not be worried about offending Putin or his incredibly more and 
more authoritarian regime. Let the chips fall where they may.
    Stripping's Magnitsky name from this bill dishonors his 
work and diminishes the tragedy of his death. So with all due 
respect to my good friend, I urge my colleagues to oppose this 
amendment.
    I yield back.
    Chairman Royce. Other members seeking recognition?
    General.
    Mr. Perry. Thank you, Mr. Chairman.
    While I have the consummate respect for my good friend from 
California, I must disagree with him on this particular issue. 
And I think that it is a good thing any single time that we 
highlight the atrocities, whether they are imposed on one 
individual or millions of individuals, by the Russian state, by 
the U.S.S.R., the Union of Soviet Socialist Republics. And any 
time we can highlight things like the Katyn Forest massacre of 
thousands of Poles or the Terror-Famine in Ukraine, up to 6 
million Ukrainians murdered by the Soviet Union and the Russian 
dictators, I think it is a good thing.
    And so with those reasons in mind, I will oppose this 
amendment and urge my colleagues to do the same.
    Chairman Royce. Thank you, General Perry.
    Mr. Albio Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    And I really appreciate all your hard work, especially on 
this bill, but I must disagree with my colleague from 
California. I think to worry about what Russia feels about 
this, the name of this bill, when they are just moving away 
from democracy and becoming more dictatorial every day, I 
really do not agree with removing this name. If we remove this 
name, maybe we should add Fidel Castro to the bill. That may be 
more appropriate.
    Thank you.
    Mr. Connolly. Would my friend yield?
    Mr. Sires. Absolutely.
    Mr. Connolly. I thank my friend.
    My friend from California knows how much I do respect him 
and like him. But I felt listening to him like I was watching 
RT, Russian Television.
    His argument is essentially three points. Well, there is a 
lot of confusion over the circumstances. We don't know whether 
he was beaten to death because he was himself corrupt or they 
were trying to get intelligence out of him, as if that could 
ever be justified.
    Secondly, it is a gratuitous slap at Vladimir Putin and 
Russia. Actually, of course, it is the very opposite. It is 
calling them out for behavior that absolutely fails even the 
minimal standards of international norms with respect to 
jurisprudence and protection of those in custody.
    Thirdly, with his billions, being an oligarch, who knows, 
maybe there were lots of reasons to justify this. There can 
never be any reasons to justify it.
    I would make the opposite argument of my friend from 
California. We must put this name on this bill. We must make it 
clear to Vladimir Putin and his friends in Russia that there 
are international standards we will adhere to and insist they 
adhere to.
    And so I think we have to reject this amendment on its face 
overwhelmingly and make a collective statement from this 
committee, on behalf of this Congress, that we take note and 
that we are not going to let up, and that unacceptable behavior 
by Mr. Putin, whether it be in the Crimea or in a prison cell 
involving Sergei Magnitsky, you will adhere to civilized 
international norms of behavior because we are going to insist 
on it. And when you don't, we are going to call you out.
    I yield back.
    Mr. Cicilline. Mr. Connolly, will you yield?
    Mr. Connolly. The time is Mr. Sires'.
    Mr. Sires. Yes, I yield.
    Chairman Royce. The gentleman yields.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I too oppose this amendment and encourage my colleagues to 
vote against it. And I just want to say that I thank my good 
friend, Mr. Rohrabacher, actually for giving us an opportunity 
to again remind people about the circumstances of this case and 
the naming of this legislation.
    There are really no doubts about the veracity of the case 
of Sergei Magnitsky, who was only 37 years old when he was 
killed in Russian Government custody after exposing wide-scale 
corruption and tax fraud by Russian officials. After arresting 
Mr. Magnitsky for the crimes he exposed, they allowed him to 
die in horrific circumstances.
    The Russian Government then continued its campaign of 
smears and vilification, turning on Magnitsky's boss, Bill 
Browder, after he refused to let the case simply disappear. 
They convicted Bill Browder in absentia of the tax evasion that 
Magnitsky had led the charge to uncover. And even more galling, 
they had the audacity to convict Mr. Magnitsky posthumously; in 
fact, the first such prosecution in Russian history.
    The Russian Government has had no shame when it comes to 
the case of Sergei Magnitsky, the details of which have been 
pored over, verified by multiple sources, and verified again. 
To allow the Russian Government any modicum of influence over 
this legislation, including its name, would be shameful and 
would dishonor the work of Mr. Magnitsky, Mr. Browder, and all 
of those men and women in Russia and around the world who fight 
against corruption and human rights abuses.
    I have here a Daily Beast article published today which 
outlines the length the Russian Government has gone to, to 
discredit, smear, and vilify Mr. Magnitsky and to oppose this 
legislation. And with the chairman's permission, I would like 
to submit it for the record.
    And I urge my colleagues to oppose this amendment and 
support the underlying legislation, the Global Magnitsky Human 
Rights Accountability Act.
    Chairman Royce. Without objection, subject to the length 
limitations and committee rules, all members have general leave 
to submit related materials for the record.
    Mr. Chabot. Mr. Chairman.
    Chairman Royce. Mr. Chabot seeks recognition.
    Mr. Chabot. Mr. Chairman, move to strike the last word.
    Chairman Royce. Mr. Chabot, you are recognized.
    Mr. Chabot. Thank you. Mr. Chairman, it doesn't mean I 
support his amendment, but I yield my time to the gentleman 
from California.
    Mr. Rohrabacher. Thank you very much for yielding that 
time. And by the way, thank you for your expressions of 
friendship and respect for differences of opinion. That is all 
right. We are in a country where we do respect each other when 
we have disagreements and that is one of the things that makes 
our country great.
    Back to this particular issue, I will just have to say that 
there is ample evidence, enough evidence that major magazines, 
like New Republic and The Wall Street Journal, have called into 
question the details of this case as to whether or not what is 
being presented is not something that has been a major effort 
on the part of a multi-billionaire who made his profit at a 
time when there was chaos and confusion in Russia and basically 
became one of the oligarchs.
    What we should be talking about is basically, when we are 
talking about whether this title is appropriate, what are our 
standards of truth in this case? Do we know absolutely what the 
truth is? And I am saying that there are enough people who are 
credible.
    And the fact that we have Mr. Browder threatening a major 
television network in the United States, threatening them with 
a lawsuit if they have any major documentary on this issue. We 
also have a man who is renowned in Russia for making 
documentaries that oppose Putin, who launched an effort to do a 
documentary on Mr. Magnitsky. And guess what, as he went on, he 
began to realize it did not make any sense, the story that was 
being presented, which is that Magnitsky was being kept because 
he was exposing some Russians, government officials of 
corruption, as compared to he was being held because the 
Russian Government knew that there was $230 million in a tax 
liability that they did not have the funds that Mr. Browder was 
eligible, that was his tax liability.
    So I think that this is a murky issue. It is not cut and 
dry. And I know that over and over again it has been repeated 
that it is cut and dry and it is not. And I have tried to be an 
honest person myself, and the bottom line is that we, by taking 
this name out, in no way are we changing the standard of what 
we have and what our Government is going to have when it comes 
to this type of behavior of foreign officials.
    The downside of this, let me be very clear about this, the 
Russians feel it is a gratuitous slap just at them. And because 
of that, they have changed a law in Russia dealing with 
Americans' ability to adopt children, Russian children. Now, I 
would oppose them doing that, but that is what they did. And 
there is a side effect to this that is harming some children 
and some people here who would like to adopt Russian children 
who are in very much in need, and it is based not on trying to 
force us to change our standards, but at least trying to force 
us to take what they considered a gratuitous slap out of the 
title of the bill.
    So with that said----
    Mr. Connolly. Would my friend yield for a question?
    Mr. Rohrabacher. I certainly will.
    Mr. Connolly. The name of the bill is the Magnitsky bill, 
not the Browder bill. Is that not correct?
    Mr. Rohrabacher. To the degree officially, that is correct.
    Mr. Connolly. Thank you.
    Mr. Rohrabacher. All right. But the name of the bill should 
be, instead of that, should be Human Rights Accountability Act 
and not anybody's name.
    So with that said, I yield back the balance of my time. I 
appreciate my colleague yielding the time to me, and I yield 
back to him.
    Mr. Chabot. Reclaiming my time, I yield back.
    Chairman Royce. Do any other members seek recognition to 
speak on this amendment?
    Mr. Randy Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman.
    When Edward Snowden was running from American officials he 
landed in Moscow eventually. American officials pushed Putin to 
either extradite him to America or to kick him out of Russia. 
Putin commented that he didn't have any control over who was in 
Russia.
    Dana, you referenced The Wall Street Journal, so it 
reminded me that Dan Henninger in that article at that time 
said that that was ridiculous what Putin said because when 
Russian officials didn't want somebody in Russia, on Russian 
soil, they either removed him from it or put him under it. So 
that is their reputation.
    I yield to my friend from Pennsylvania.
    Mr. Perry. Thank you for yielding to my good friend from 
Texas.
    Just in response to my other good friend from California, 
which I must vehemently disagree with on this, when he says we 
are not sure of the facts, we are not sure of the facts, let me 
tell you what facts we are absolutely sure of. We are sure of 
the facts of the Terror-Famine in the 1930s where the Russian 
Government murdered by starvation up to 6 million Ukrainians 
and took their land. We are sure of the facts of the Katyn 
Forest massacre of World War II and the massacre of the Poles 
that were blamed on the Germans. We are sure of the facts of up 
to 45 million untimely deaths at the boot of communism and 
socialism under the Russian Government. And we are sure of the 
fact that Vladimir Putin is a former KGB agent and he is 
coalescing power not in a democratic way, but an authoritarian 
way, and is likely responsible for the untimely and unpleasant 
deaths of many that we don't know about. But we do know about 
this one.
    I think it is our duty to remind the American people every 
single day that we can, until they change their ways, what the 
Russian Government, what the U.S.S.R. has stood for, what 
Communism and Socialism has meant for the world, world over, 
since World War II.
    And with that, Mr. Chairman, I yield back.
    Chairman Royce. Do any other members seek recognition? 
Hearing no further requests for recognition, the question 
occurs on the amendment.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the noes have it, and the 
amendment is not agreed to.
    Are there any other requests for amendment at the desk. 
Hearing no further amendments, the Chair now moves that the 
committee agree to S. 284's amendment.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and S. 284, 
as amended, is agreed to. Without objection, S. 284, as 
amended, is ordered favorably reported as a single amendment in 
the nature of a substitute. Staff is directed to make any 
technical and conforming changes and the Chairman is authorized 
to seek House consideration under suspension of the rules.
    So that concludes our business for today. I want to thank 
Ranking Member Engel and all of our committee members for their 
contributions and assistance with today's markup.
    The committee is adjourned.
    [Whereupon, at 11:22 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
                   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 
                   
                   

Material submitted for the record by the Honorable Dana Rohrabacher, a 
        Representative in Congress from the State of California
        
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
        

 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       
       
                                 [all]
</pre></body></html>
